ANIMAL AND PLANT HEALTH INSPECTION SERVICE
    PLANT PROTECTION AND QUARANTINE
           ACTIVITIES IN FLORIDA
        AUDIT REPORT NO. 33004-1-At

                MARCH 2000




 UNITED STATES DEPARTMENT OF AGRICULTURE
    OFFICE OF INSPECTOR GENERAL - AUDIT
             SOUTHEAST REGION
 401 WEST PEACHTREE STREET NW., SUITE 2328
           ATLANTA, GA 30365-3520
                        EXECUTIVE SUMMARY

        ANIMAL AND PLANT HEALTH INSPECTION SERVICE
            PLANT PROTECTION AND QUARANTINE
                    ACTIVITIES IN FLORIDA
                AUDIT REPORT NO. 33004-1-AT



                                       T he Animal and Plant Health Inspection
          PURPOSE                       Services’ (APHIS), Plant Protection and
                                        Quarantine    (PPQ)      is   responsible   for
                                        (1) detecting and preventing pests and
           diseases harmful to agricultural products from entering the United States
           and (2) controlling pests and diseases found in this country that might
           pose a threat to America’s ability to export safe agricultural products. We
           performed an audit of PPQ activities in Florida to (1) evaluate whether
           inspection procedures to prevent diseases and pests from being
           introduced into the country were adequate and complied with and
           (2) assess internal controls over program activities.

                                       Pests and diseases on agricultural products
      RESULTS IN BRIEF                  have entered Florida through the State’s ports
                                        undetected which have led to costly
                                        eradication and control efforts. For example,
           outbreaks and spread of citrus canker and Medflies in Florida have
           caused the State and Federal Government to spend millions of dollars to
           fund programs to combat the outbreaks. Our review of PPQ practices for
           inspecting air and ship cargos and passengers arriving in the Miami and
           Fort Lauderdale ports identified vulnerabilities and weaknesses which
           increased the risk of prohibited agricultural products entering the United
           States. We observed that PPQ inspectors did not (1) inspect cargo ships
           timely upon arrival, (2) inspect the baggage of 75 percent of arriving
           international airline passengers and 99 percent of cruise ship passengers
           arriving from foreign locations, (3) asses fines as a deterrent against
           airline and cruise ship passengers found to have prohibited agricultural
           items in their possession when entering the United States, (4) select
           samples of perishable cargo for inspection but, instead, allowed brokers to
           select the samples, and (5) ensure caterers met all foreign arriving aircraft
           timely and controlled regulated garbage. We also observed that cargo
           inspections performed during overtime periods, which accounted for over
           50 percent of all cargo inspections, were not supervised.



USDA/OIG-A/33004-1-At                                                            Page i
           APHIS should evaluate the amount of user fees it charges for various
           inspection services and the fee allocation process to ensure that adequate
           staff/resources are available to fund PPQ work units in Florida. The lack
           of funds affected PPQ’s ability to perform timely and thorough inspections
           at Florida ports to detect and prevent undesirable pests and diseases from
           entering the United States.

           Several PPQ employees at the Miami airport consistently reported late for
           duty and used Government-owned vehicles for unauthorized purposes.
           On March 12, 1999, we issued a management alert to APHIS concerning
           employee tardiness at the Miami airport. The APHIS Administrator
           directed the Resource Management System and Evaluation Staff to
           investigate the condition and take appropriate actions. We also found that
           one employee made questionable charges to the Government for vehicle
           fuel and maintenance costs. These conditions were undetected and/or
           uncorrected because of weak supervisory oversight and controls over
           employee time and attendance and vehicle operations.

                                        We recommend that APHIS (1) timely inspect
  KEY RECOMMENDATIONS                    all ships upon arrival from foreign ports,
                                         (2) assess whether the inspection levels for
                                         airline and cruise ship passengers is sufficient,
           (3) assess penalties against airline and cruise ship passengers who
           attempt to bring prohibited items into the country, (4) require PPQ
           inspectors to select and secure all samples of fresh-cut flowers, fruit and
           vegetables, and live plants that are to be inspected, (5) revise Federal
           regulations to require caterers to timely meet aircraft and seek legislation
           to assess civil penalties against caterers where conditions warrant such
           action, (6) provide adequate overtime supervision for cargo inspections,
           and (7) evaluate the fee rates charged for various inspections to ensure
           that sufficient staff/resources are available to provide adequate and timely
           inspections.

                                        In its January 28, 2000, written response to
      AGENCY POSITION                   the draft report, APHIS was in general
                                        agreement with the findings and recommenda-
                                        tions.   However, APHIS did not provide
           specific details, timeframes, and actions taken or planned for each of the
           recommendations.        Its specific comments and OIG’s position are
           presented in the relevant sections of the report for each finding. APHIS’
           entire response is shown in Exhibit C of the report.




USDA/OIG-A/33004-1-At                                                             Page ii
     TABLE OF CONTENTS



     EXECUTIVE SUMMARY .......................................................................... i


     INTRODUCTION....................................................................................... 1

          BACKGROUND ........................................................................................ 1

          OBJECTIVES ........................................................................................... 2

          SCOPE .................................................................................................... 2

          METHODOLOGY...................................................................................... 3

     FINDINGS AND RECOMMENDATIONS............................................... 4

     I.    PPQ’s INSPECTION PROCEDURES WERE NOT ADEQUATE ................ 4

           FINDING NO. 1 - CARGO SHIPS WERE NOT INSPECTED TIMELY ........ 4

           Recommendation No. 1........................................................................... 6

            FINDING NO. 2 - PROHIBITED AGRICULTURAL ITEMS
            BROUGHT INTO FLORIDA BY AIRLINE PASSENGERS WERE
            NOT INTERCEPTED.............................................................................. 7

            Recommendation No. 2 .......................................................................... 8

            FINDING NO. 3 - LUGGAGE AND PERSONAL EFFECTS OF CRUISE
            SHIP PASSENGERS WERE NOT INSPECTED ...................................... 9

            Recommendation No. 3........................................................................ 11

             FINDING NO. 4 - CIVIL PENALTIES WERE NOT ASSESSED
            TO DETER PASSENGERS FROM BRINGING PROHIBITED
            ITEMS INTO THE COUNTRY ............................................................... 11




USDA/OIG-A/33004-1-At                                                                                       Page iii
     TABLE OF CONTENTS



        Recommendation No. 4........................................................................... 14

         Recommendation No. 5........................................................................... 14

         FINDING NO. 5 - PRACTICES FOR SELECTION OF SAMPLES
         OF PERISHABLE ITEMS COMPROMISED THE INTEGRITY
         OF INSPECTIONS ................................................................................. 15

        Recommendation No. 6........................................................................... 17

         Recommendation No. 7........................................................................... 18

         FINDING NO. 6 - COMPLIANCE AGREEMENTS WITH CATERERS
         WERE NOT ENFORCED ........................................................................ 18

         Recommendation No. 8.......................................................................... 20

         FINDING NO. 7 - CARGO INSPECTIONS PERFORMED DURING
         OVERTIME PERIODS WERE NOT SUPERVISED................................... 21

         Recommendation No. 9.......................................................................... 23

     II. APHIS SHOULD EVALUATE USER FEES TO ENSURE FUNDING
         IS AVAILABLE FOR TIMELY AND THOROUGH INSPECTIONS ............ 24

         FINDING NO. 8 .................................................................................... 24

         Recommendation No. 10 ........................................................................ 26

         Recommendation No. 11........................................................................ 26

         Recommendation No. 12........................................................................ 26

     III. APHIS’ SUPERVISION OF PPQ INSPECTION ACTIVITIES
          NEEDS STRENGTHENING .................................................................... 27

         FINDING NO. 9 - EMPLOYEES WERE CONSTANTLY
         TARDY FOR WORK............................................................................... 27




USDA/OIG-A/33004-1-At                                                                               Page iv
     TABLE OF CONTENTS



        Recommendation No. 13......................................................................... 29

        Recommendation No. 14......................................................................... 29

     FINDING NO. 10 - MANAGEMENT DID NOT MONITOR EMPLOYEES’
     USE OF GOV's AND CREDIT CARDS......................................................... 30

        Recommendation No. 15......................................................................... 32

        Recommendation No. 16......................................................................... 32



     EXHIBITS

     A. SUMMARY OF MONETARY RESULTS .................................................. 34

     B. LOCATIONS WHERE AUDIT WORK WAS PERFORMED....................... 35

     C. APHIS RESPONSE TO THE DRAFT REPORT........................................ 36




USDA/OIG-A/33004-1-At                                                                           Page v
                                INTRODUCTION



                                        The Animal and Plant Health Inspection
        BACKGROUND                      Service    (APHIS), Plant Protection and
                                        Quarantine     (PPQ)     is   responsible     for
                                        (1) excluding from entry into the United States
          (U.S.), plant pests, diseases and weeds which threaten American
          agricultural crops and (2) controlling plant pests and diseases within the
          United States so that America's ability to export safe agricultural products to
          other countries is not threatened.

            Program Administration

            PPQ Headquarters staff in Washington D.C., administers program activities
            through 13 regional offices and 407 field offices located throughout the
            country. PPQ inspectors conduct agricultural pest and disease inspection
            services at all international airports, shipping ports, and land border stations
            in the United States.

            The State Plant Health Director (SPHD) in Gainesville, Florida, administers
            PPQ operations in Florida. The SPHD is responsible for the management
            of PPQ activities at six major Florida ports located in Miami, Fort
            Lauderdale, Tampa, Orlando, Fort Pierce, Jacksonville, and at other smaller
            ports.

            PPQ Operations in Florida

            Florida has one of the largest PPQ inspection workloads in the United
            States. In 1997, nearly 70 percent of all perishable commodities, fresh-cut
            flowers, and plants imported into the United States came through Florida
            ports. Miami has one of the busiest airports and seaports in the Nation and
            is referred to by APHIS as a "super port."




USDA/OIG-A/33004-1-At                                                               Page 1
                    Table 1 shows PPQ activity in fiscal year (FY) 1998 at the six Florida ports.



                                   AIRCRAFT ARRIVALS


                      CARGO FLIGHTS               PASSENGER FLIGHTS                   MARITIME ARRIVALS
                                 TONS OF                   PASSENGERS                   TONS OF      PASSENGERS
       PORT           NO.         CARGO           NO.      PROCESSED         NO.         CARGO       PROCESSED

Miami                24,404 1,677,000             65,659     7,230,736        4,888      3,767,819        3,052,450
Fort
                                                                         1
 Lauderdale                                       21,099       146,498        3,655      5,961,263         853,336
Orlando                     63      4,262         11,799     1,439,483
Tampa                        6        388          1,766       215,484        1,005        442,513
Fort Pierce                                          628        76,646        1,828         22,948         508,480
Jacksonville                                        314          1,800        2,751         16,907
 Total               24,473 1,681,650            101,265     9,110,647       14,127     10,211,450        4,414,266
1
    Totals provided by agency were incomplete.



                                                           TABLE 1


                    The SPHD is assisted by port directors assigned to each of the ports. The
                    directors at several of the ports are responsible for work units located at
                    other ports. For example, the port director for Tampa is responsible for
                    PPQ activities in field offices in Palmetto and Fort Myers, Florida.

                    The SPHD also has responsibility for coordinating and cooperating with
                    the State of Florida in agricultural pest and disease control activities.
                    Major domestic programs in which PPQ and State officials were jointly
                    involved at the time of the audit were the Mediterranean fruit fly (Medfly)
                    and the citrus canker programs.

                                                            The audit objectives were to evaluate PPQ’s
                 OBJECTIVES                       activities within Florida to (1) determine
                                                  whether inspection procedures to prevent
                                                  agricultural diseases and pests from being
                    introduced into the United States were adequate and complied with and
                    (2) assess internal controls over program activities.

                                                  The audit, performed in accordance with
                      SCOPE                      generally    accepted government auditing
                                                 standards, covered 1998 activities.        We
                                                 also reviewed other periods as necessary.
                    The audit work was performed at the APHIS PPQ National Offices
                    in Washington, D.C., and Riverdale, Maryland; the Florida State Office in
                    Gainesville, Florida; and the ports in Miami, Fort Lauderdale, Orlando, and


USDA/OIG-A/33004-1-At                                                                                       Page 2
           Tampa, Florida. (See exhibit B). Emphasis was placed on activities at the
           Port of Miami due to its large volume of activity.

                                       To accomplish the audit objectives, our
       METHODOLOGY                     examination consisted of the following:


           - Research of applicable laws and regulations. This included, but was
             not limited to, Title 7, Code of Federal Regulations (CFR), parts 300
             through 399.

           - Interviews with PPQ officials and reviews of PPQ inspector handbooks,
             program activity reports and other pertinent correspondence at the PPQ
             national office, the Florida State Office, and PPQ offices at the ports.

           - Tests and analyses of PPQ controls and procedures over agricultural
             inspection activities, including personnel utilization.

           - Observations of PPQ inspections of airplanes and ships and processing
             of international passengers arriving in the United States by air and cruise
             ships.

           - Evaluation of PPQ inspections of propagative plant materials and the
             issuance of export certifications at plant inspection stations.

           - Review of PPQ employees' time and attendance records.

           - Analysis of controls over PPQ motor vehicle utilization and maintenance.

           - Review of PPQ budgets and activities concerning the citrus canker and
             Medfly programs within Florida.




USDA/OIG-A/33004-1-At                                                            Page 3
            FINDINGS AND RECOMMENDATIONS



  I. PPQ’S INSPECTION PROCEDURES WERE NOT ADEQUATE


            Each person and/or conveyance entering the United States could
            potentially carry a prohibited item containing a pest or disease capable of
            causing damage to agriculture in this country. Areas designated as "high
            risk" by State and Federal officials for agricultural pest and diseases (e.g.
            Medfly) are normally the areas in the vicinity of air and sea ports.
            Agricultural products infested with diseases and pests such as the Medfly
            and citrus canker have entered the United States through Florida air and
            seaports causing damage to the State's agricultural crops. Efforts to
            eradicate and control the spread of the diseases and pests have cost the
            State and Federal Government millions of dollars.

            Our review of PPQ practices for inspecting air and ship cargos and
            passengers arriving in the Miami and Fort Lauderdale ports identified
            vulnerabilities and weaknesses which increased the risk of prohibited
            agricultural products entering the United States. We observed that PPQ
            inspectors did not inspect cargo ships timely upon arrival and inspected the
            baggage of only about 25 percent of international passengers arriving by air
            and about 1 percent of passengers arriving on cruise ships. Inspectors also
            did not (a) assess fines as a deterrent against airline and cruise ship
            passengers found to have prohibited agricultural items in their possession
            when entering the United States, (b) select samples of perishable cargo for
            inspection but, instead, allowed brokers to select the samples, and
            (c) ensure caterers meet all foreign arriving aircraft timely and control
            regulated garbage. We also observed that cargo inspections performed
            during overtime periods, which accounted for over 50 percent of all cargo
            inspections, were not supervised.

                                        PPQ officers in Miami and Fort Lauderdale did
         FINDING NO. 1              not inspect cargo ships timely upon arrival.
                                    Some inspections where serious violations
    CARGO SHIPS WERE NOT
                                    were found were deferred for up to 27 hours
         INSPECTED
                                    after the ship's arrival. In FY 1998, a total of
                                    8,543 ships arrived at the Miami and Fort
          Lauderdale ports from foreign locations. The longer the violations went
          undetected, the greater the opportunity for insects to leave the ship and


USDA/OIG-A/33004-1-At                                                            Page 4
                           enter the United States. To save funds, inspections of cargo ships without
                           prior garbage or sealable food stores violations that arrived at the two
                           Florida ports during nonduty hours were deferred until normal duty hours.

                           Federal regulations require that ships arriving in the United States be
                                                                                                       1
                           inspected in order to prevent plant pests from entering the country. PPQ
                           inspection procedures call for inspections of ships upon arrival if they are
                           (a) likely to have sealable food stores on board, (b) on the current garbage
                           violation list, or (c) likely to have critical pest risk situations. Otherwise, the
                                                                                       2
                           inspections can be delayed until regular work hours.

                           In FY 1998, a total of 8,543 foreign ships arrived in Miami and
                           Fort Lauderdale (4,888 in Miami and 3,655 in Fort Lauderdale) from foreign
                           locations. We reviewed 176 of the ship inspection reports that were
                           available at the work site we visited in Miami. The reports showed that
                           30 (17 percent) of the 176 inspections were deferred and in 20 of the
                           deferred inspection cases (11.4 percent) the inspectors found serious
                           violations. The 20 inspection reports included 10 coastwise arrivals and
                           10 direct arrivals. The deficiencies included unsealed food stores,
                           regulated garbage violations, and pests which were not discovered for
                           periods ranging from 2 hours to almost 27 hours after the ships arrived in
                           port. (See table 3.)


                                                   CONDITIONS FOUND DURING DEFERRED INSPECTIONS

                                               Type of                  Number of               Unsealed    Garbage     Pests
                                                Arrival                  Arrivals                Stores    Violations   Found
                                         Coastwise                            10                   10           1         1
                                         Direct                               10                    8           3         2
                                             Total                            20                   18           4         3


                                                                                          TABLE 2

                           Garbage violations were noted in four of the delayed inspections. For
                           example, one of the inspection reports was for a ship that had been in port
                           for 3 hours prior to inspection. Upon boarding the ship, the inspector found
                           exposed garbage covered with flies next to an open window. The flies
                           could have carried diseases from the garbage onto shore.

                           Unsealed fruits and vegetables were found during 18 of the delayed
                           inspections. Without the produce being sealed in a cooler or other
                           protected container, any pests on the fruits or vegetables could have
                           potentially flown onto shore. Also, unsealed produce containing the eggs
1
    7 CFR 330.105, dated January 1, 1998.

2
    PPQ Airport and Maritime Operations Manual, dated June 25, 1993, pages 3.15 through 3.18.




USDA/OIG-A/33004-1-At                                                                                                   Page 5
           or larva of pests could be carried off the ship by the crew and mature into
           adult insects once on shore. The longer the produce remains exposed,
           the greater the opportunity for insects to leave the ship and enter the
           United States.

           Arriving ships should be inspected as soon as possible in order to control
           garbage and sealable fruits and other stores before undesirable pests and
           organisms come ashore. Once pests or other harmful organisms find
           their way into American agriculture, they are difficult and expensive to
           remove.


  RECOMMENDATION NO. 1


           Require PPQ officers to timely schedule for inspection all ships arriving from
           foreign ports.

           Agency Position:

           In its January 28, 2000, written response, APHIS stated the following:

                While PPQ is presently considering various staffing options and
                shifting of priorities to increase number of inspections of cargo
                ships, we do not believe all ships pose the same degree of risk.
                We are continuing efforts to adjust our level of operations to
                correspond more accurately to risk assessment, but, inspection
                of all cargo and passengers would not increase program
                effectiveness. Our Agriculture Quarantine Inspection (AQI)
                programs have always been based on scientific risk
                assessments, and the increased staffing of this program will
                provide sound data upon which to base our programmatic
                priorities. Fully staffing our Risk Assessment Program and
                generating sufficient data to reorganize and restructure the
                workhorse is estimated to require one year.

           OIG Position:

           To accept management decision, we need specific timeframes for fully
           staffing the Risk Assessment Program, completing sufficient data
           assessments, and implementing results obtained from the risk
           assessments. While timely inspections may not prevent violations from
           occurring, they are critical in order to provide for quicker detection and
           correction of violations. The longer unsealed fruits and vegetables and
           garbage violations are allowed to exist on arriving ships, the greater the
           risk of pests and diseases making their way onshore.



USDA/OIG-A/33004-1-At                                                            Page 6
                                                                 PPQ officers did not inspect the baggage of
                FINDING NO. 2           three of every four airline passengers arriving at
                                        Florida airports from foreign locations. We
  PROHIBITED AGRICULTURAL               observed that PPQ officers inspected those
ITEMS BROUGHT INTO FLORIDA              airline passengers who noted on the declaration
BY AIRLINE PASSENGERS WERE              form that they possessed agricultural items or
      NOT INTERCEPTED                   passengers selected by inspectors trained in
                                        agricultural risk assessment. In FY 1998, a total
                                        of 10,724,000 airline passengers arrived in
            Florida from foreign countries. PPQ officers were able to inspect only
            2,463,095 (23 percent) of the arriving passengers because of a lack of
            resources.      Based on APHIS' AQIM data, an estimated 565,612
            (5.2 percent) of the arriving international passengers brought prohibited
            agricultural items into the State. PPQ inspectors intercepted the prohibited
            items from only 107,102 (19 percent) of the 565,612 passengers. As a
            result, an estimated 458,510 (81 percent) of the arriving international
            passengers with prohibited items were not caught.

                       The inspection of airline passengers and their baggage is a joint effort
                       conducted by U.S. Customs, Immigration, Public Health, and PPQ.
                       Collectively, the inspection done by the four agencies is called the "Federal
                       Inspection Service (FIS)." At the Miami International Airport, PPQ and U.S.
                       Customs work together to conduct inspections of airline passengers and
                       their luggage. The inspection is performed by an FIS inspector who may be
                       a U.S. Customs inspector.
                                                                                         3
                       The PPQ airport passenger inspection procedures divides passenger
                       inspections into two phases. The first phase of the inspection process is
                       screening/profiling of arriving passengers to select passengers and their
                       luggage for further examination. During the first phase, an FIS inspector
                       (a) conducts a face-to-face interview with passengers and reviews their
                       written declaration forms and (b) has the opportunity to redirect passengers
                       cleared by other Federal agencies to a secondary inspection by PPQ. A
                       secondary inspection can consist of as little as detailed questioning or as
                       much as a thorough inspection of the passengers' baggage.

                       According to PPQ officials, airline passengers represent the highest risk for
                       pest introduction into the United States. However, only about one out of
                       four airline passengers arriving in Florida from foreign countries received a
                       secondary inspection (baggage thoroughly inspected and/or x-rayed) by an
                       FIS inspector. (See table 3.)




3
    APHIS PPQ AIRPORT AND MARITIME OPERATIONS MANUAL, dated June 1993.




USDA/OIG-A/33004-1-At                                                                                Page 7
                                             NO. OF PASSENGERS ARRIVING IN FLORIDA
                                                                                Estimated
                                                                                 No. With
                                                                                Prohibited
                                                                                       1
   Location                 Arriving         Inspected          Percent           Items              Intercepted          Percent
   Miami                    8,421,364         2,338,121               27.8           551,978                 84,910            15.4
   Other
   Airports                2,302,914            124,974                5.4            66,945                22,192             33.1
                                                                                           1
   Total                  10,724,278          2,463,095               23.0          565,612                107,102             18.9
   1
       Total number of prohibited items do not equal sum of individual airport totals because of AQIM estimating procedures.


                                                              TABLE 3

                   Miami International Airport is one of the busiest airports in the United States for
                   international arrivals. During our visits to the Miami Airport we observed
                   secondary inspections of about 250 passengers.            PPQ inspectors found
                   prohibited agricultural items in eight passengers' luggage who had reported no
                   prohibited items on their declaration form. PPQ officials estimated that 551,978
                   passengers arriving at Miami International possessed prohibited items. Because
                   only about one in four of the passengers were inspected, the prohibited items
                   were not intercepted from 467,068 (84.6 percent) of them.

                   The Miami Port Director stated that PPQ was performing the maximum
                   number of inspections possible with the amount of resources available. He
                   said in order to increase inspection activity additional resources including
                   staff, facilities, and equipment would be required.


  RECOMMENDATION NO. 2


                   Evaluate the inspection process for airline passengers arriving from foreign
                   countries to develop alternatives for increasing the number of passengers
                   inspected.

                   Agency Position:

                   In its January 28, 2000, written response, APHIS stated the following:

                           PPQ is increasing its efforts in risk assessment by adding
                           additional staff to that function in the field and headquarters.
                           The Agency will reevaluate its inspection program based on the
                           scientific data and will be guided by where and how it should
                           conduct inspections which provide the greatest protection for



USDA/OIG-A/33004-1-At                                                                                                      Page 8
                                     the country. This effort will also require one year. The risk
                                     assessment      data    discussed    in   our   response      to
                                     Recommendation 1 will include all forms of entry of agricultural
                                     products into the US[.]

                            OIG Position:

                            To accept management decision, we need more details and timeframes
                            for adding additional staff to the risk assessment functions, completing the
                            reevaluation of PPQ’s inspection program, and implementing changes
                            (specifically concerning the inspection of airline passengers) based on the
                            reevaluation results.

                                                                                 PPQ inspectors at the Miami and Fort
                       FINDING NO. 3          Lauderdale seaports did not inspect the
                                              luggage and personal effects of cruise ship
          LUGGAGE AND PERSONAL
                                              passengers arriving from foreign ports. Due to
          EFFECTS OF CRUISE SHIP
                                              a shortage of inspectors, the local port
           PASSENGERS WERE NOT
                                              procedures allowed the inspectors to deviate
                INSPECTED
                                              from procedures contained in the APHIS
                                              Airport and Maritime Operations Manual. As a
                 result, passengers and crew members arriving from foreign ports could
                 bring prohibited items harboring diseases and pests into the country without
                 detection. Based on AQIM data for FY 1998, APHIS estimated that out of
                 3 million arriving cruise ship passengers arriving at Florida ports, 60,000
                 passengers (2 percent) brought prohibited items into the United States.
                                                                                                     4
                            The APHIS PPQ cruise ship inspection procedures divide passenger
                            inspections into two phases. The first phase occurs after passengers
                            retrieve their baggage and involves (a) a face-to-face interview with the
                            passengers, (b) a review of the Customs Declaration form which the
                            passenger completes prior to departing the ship, and (c) an opportunity to
                            redirect passengers cleared by other Federal inspectors to a secondary
                            inspection by PPQ inspectors. Based on results of the first phase of the
                            inspection, inspectors have the option of conducting the second phase of
                            the inspection. The second phase ranges from detailed questioning to a
                            thorough inspection of the contents of a passenger's baggage to ensure the
                            passenger has no prohibited agricultural items.

                            Cruise ship inspection procedures at the two ports offered little deterrent to
                            passengers who attempted to bring prohibited agricultural items into the
                            country. PPQ officers at both ports did not have face-to-face interviews
                            with passengers, review their declaration forms, or inspect baggage cruise
                            line employees removed from ships unless a passenger was selected
                            randomly as part of the AQIM program. The AQIM program only requires
4
    APHIS PPQ Airport and Maritime Operations Manual, pages 3.99 & 3.100, March 1996.




USDA/OIG-A/33004-1-At                                                                                          Page 9
           a thorough inspection of baggage and personal belongings of as little as
           three passengers randomly selected from each ship.

           Inspection procedures at the two ports were far less comprehensive than
           the procedures described in the APHIS manual. The following procedures
           were used by PPQ officers at the two ports.

          a. An announcement was made on board ship prior to passengers'
             departure advising them not to take undeclared agriculture items off the
             ship.

          b. Containers were placed on the ship's gangway and throughout the
             passenger exit route with signs attached that read "Please leave all
             fruit, plants, seeds and meats at this point. Failure to do so may
             result in an immediate $50 fine."

          c.   Two displays containing locked bins were located at the end of the
               gangway in which agricultural items could be deposited. The
               displays included pictures of food with the words, "Declare it,
               Dump it, Pay a fine."

           We did observe that officers at the Miami port inspected hand-carried
           baggage of about 1 out of every 100 disembarking passengers. However,
           officers at the Fort Lauderdale port did not inspect hand-carried baggage.

           PPQ officials said they did not inspect more passengers because they did
           not have sufficient funds to assign more than one inspector to most cruise
           ships. They also said AQIM data showed a low risk for cruise ship
           passengers and reportable pest interceptions were seldom made on items
           taken from individuals departing cruise vessels. For FY 1998, APHIS
           estimated that out of 4 million arriving cruise ship passengers at seaports
           surveyed in Florida; Long Beach, California; and San Juan, Puerto Rico;
           80,000 passengers attempted to bring prohibited items into the United
           States. APHIS officials told us that about 3 million of the 4 million
           passengers came through ports surveyed in Florida and about 60,000 of
           the estimated 80,000 passengers that brought prohibited items into the
           country came through Florida ports.

           APHIS Headquarters officials said that screening of individual passengers
           arriving on cruise ships was part of the agency's mission and should be
           performed at an acceptable level.




USDA/OIG-A/33004-1-At                                                        Page 10
    RECOMMENDATION NO. 3


             Assign sufficient staff/resources to properly process cruise ship
             passengers arriving from foreign ports.

             Agency Position:

             In its January 28, 2000, written response, APHIS stated the following:

                    PPQ has begun a new initiative to increase the number of
                    compliance agreements with cruise ships. This will place
                    greater responsibility on the ships themselves and will free up
                    our staff to perform other functions which provide greater
                    protection to American agriculture. PPQ’s approach to cruise
                    ships is consistent with risk assessment analysis to provide as
                    much protection as possible with finite resources. By April 30,
                    2000, the Deputy Administrator will instruct Port Directors to
                    begin negotiations with cruise lines to establish compliance
                    agreements. PPQ hopes to have negotiations concluded by
                    September 30, 2000.

             OIG Position:

             To accept management decision, we need additional details on (a) the
             initiative to increase the number of compliance agreements with cruise
             ships and (b) specific inspection actions/procedures included in the
             agreements for the cruise ship crews to follow.

                                         PPQ inspectors seldom assessed fines against
         FINDING NO. 4                   airline and cruise ship passengers who failed to
                                         declare prohibited agricultural items in their
  CIVIL PENALTIES WERE NOT               possession when entering the United States.
     ASSESSED TO DETER                   As a result, there is little deterrent to prevent
 PASSENGERS FROM BRINGING                individuals arriving at Florida ports from
  PROHIBITED ITEMS INTO THE              bringing prohibited agricultural items into the
           COUNTRY                       country. PPQ officials said that fines were not
                                         assessed because (a) inspectors could not be
                                         spared from their other duties to complete the
           forms and to escort individuals to a U.S. Customs airport cashier where the
           fines are collected, (b) there was no convenient way to collect fines at the
           seaports, (c) a language barrier between inspectors and passengers
           arriving from foreign countries made it difficult to communicate PPQ's rules
           regarding prohibited items, and (d) the fine amounts were too small to be a
           deterrent.


USDA/OIG-A/33004-1-At                                                            Page 11
                           PPQ officers have authority to assess fines against airline and cruise ship
                           passengers who attempt to bring agricultural products into the United States
                           that (a) are outright prohibited, (b) require treatment as a condition of entry,
                           (c) require post entry growing, or (d) require foreign certification or a written
                                                                               5
                           permit but do not have the certificate or permit. The fine amounts are $50
                           for the first offense of failing to declare an item and $100 for repeated
                           offenses. A fine of up to $250 can be assessed against individuals who
                           obviously try to conceal or misrepresent the item seized or intentionally try
                                                                             6
                           to smuggle contraband into the United States. Before an individual can be
                           fined, they must make a negative declaration (oral or written) that they have
                           no prohibited agricultural materials in their possession, and must be given
                                                                         7
                           an opportunity to amend that declaration. PPQ procedures at the Florida
                           ports give passengers two chances to amend the declaration before they
                           are assessed a fine.

                           Based on FY 1998 AQIM data, APHIS estimated that about 626,000
                           (4.6 percent) of airline and cruise ship passengers entering Florida ports in
                           FY 1998 had prohibited material in their possession. (See table 4.)



                                                                            NUMBER OF PASSENGERS
                                                        Estimated No.
                                                        With Prohibited                                  Items       Percent
    Conveyance                   Arriving                    Items                      Percent       Intercepted    Missed
                                                                                                           1
    Cruise Ship                   3,000,000                       60,000                   2.0                          X
    Airline                      10,724,478                      565,612                   5.3         107,102         81
         Total                   13,724,478                      625,612                   4.6            X             X
    1
       AQIM data for items intercepted from cruise ships was not available. However, due to lack of inspections, most of the prohibited
    items would not be intercepted.



                                                                                    TABLE 4


                           FY 1998, AQIM data showed that nationwide an estimated 3.2 million airline
                           passengers (5.9 percent) out of 54 million that arrived from foreign
                           countries brought prohibited items into the country.

                           PPQ officials at the Miami and Fort Lauderdale seaports stated that civil
                           penalties were not assessed against cruise ship passengers because
                           there were no provisions or agreements with U.S. Customs to collect
                           the penalties. At the Miami airport an estimated 84,910 passengers were
5
    APHIS PPQ Airport and Maritime Operations Manual, pages 3.105 and 2.45, dated March 1994.
6
    APHIS PPQ Airport and Maritime Operations Manual, pages 3.106, May 1995 and 2.47, July 1997.

7
    APHIS PPQ Airport and Maritime Operations Manual, pages 3.105, March 1994, and 2.45, July 1997.




USDA/OIG-A/33004-1-At                                                                                                       Page 12
           caught attempting to enter the country with prohibited food items during
           FY 1998, but only 672 passengers were assessed fines. Directors at the
           Fort Lauderdale, Orlando, and Sanford, Florida, airports were not able to
           provide us with the amount of fines assessed at those locations.
           However, they said there were not a significant number of penalties
           assessed. AQIM estimates show that during FY 1998, about 22,192
           passengers were caught attempting to bring prohibited agricultural items
           through those airports.

           During our periodic observations of baggage examinations at the Miami
           airport, an estimated 250 passengers passed through the area. PPQ
           officers found prohibited items in the luggage of eight passengers,
           although each of the individuals noted on their Customs Declaration form
           that their luggage did not contain any prohibited items. Further, when the
           PPQ inspectors asked if they had any food items in their luggage, all eight
           individuals declined to amend their declaration forms. However, only one
           of the eight individuals was fined, and this was due to the persistence of a
           U.S. Customs inspector who suspected the passenger's luggage
           contained prohibited food items and questioned the individual regarding
           the contents in the luggage. The individual denied several times that
           there were any food items in the luggage. The customs inspector escorted
           the individual to the PPQ inspection area where the luggage was searched
           and found to contain 11 sausages concealed between layers of clothing.
           The customs officer insisted that the PPQ officer fine the passenger.

           During visits to the Miami and Fort Lauderdale Airports, we rarely
           found all PPQ officers on duty in the inspection area busy. There were
           officers available during each of the interceptions we observed who
           could have completed the paperwork required to assess fines and
           escorted the offenders to the U.S. Customs cashier. Further, both
           English and Spanish speaking PPQ personnel were normally on duty
           who could effectively communicate with the majority of the passengers, and
           copies of the Customs Declaration were available in Spanish as well as
           English. Language was rarely a barrier to effectively inform the
           passengers of the requirement to declare agricultural items.

           We discussed with APHIS Headquarters officials the small number of
           fines assessed against passengers who attempted to bring prohibited
           items into the country. They agreed this was a problem and said they
           were considering implementing a pilot program where all violators would
           be given a choice of either paying a fine or watching a video that showed
           the harmful effects caused by pests or disease brought into the United
           States.




USDA/OIG-A/33004-1-At                                                         Page 13
   RECOMMENDATION NO. 4


           Collect civil penalties from airline and cruise ship passengers in all
           instances where violations are identified.

           Agency Response:

           In its January 28, 2000, written response, APHIS stated the following:

                As noted above, there is no regulatory authority to collect or
                process fines of cruise ships. PPQ agrees that the imposition of
                penalties should be consistently applied. However, we question
                whether penalties must be imposed in “all instances” as this
                could eliminate discretion on the part of PPQ to recognize and
                deal with special circumstances. The Director of Operations will
                study this issue and develop a directive by October 1, 2000. A
                unit charged with increasing public education will be created as
                increased funding and resources permits.

           OIG Position:

           According to APHIS’ Airport and Maritime Operations Manual, pages 2.45
           and 3.105 revised April 30, 1998, if PPQ inspectors have legal authority to
           refuse entry to an article, they have authority to assess and collect civil
           penalties. APHIS officials in Miami, state that PPQ inspectors did not
           assess civil penalties against cruise ship passengers because there were
           no provisions with U.S. Customs to collect the penalties. As stated in the
           audit report, the reasons given by APHIS officials at the Miami
           International Airport for not assessing and collecting penalties from
           arriving passengers were not valid. We agree that discretion is merited in
           some cases; however, we found that the general practice was not to
           collect penalties. To accept management decision, we need specific
           timeframes and actions planned or taken for implementing procedures to
           assess and collect civil penalties against airline and cruise ship
           passengers where conditions warrant such actions.


   RECOMMENDATION NO. 5


           Evaluate whether the fine amounts (e.g. $50) are sufficient to serve as an
           effective deterrent to passengers' attempts to bring prohibited items into the
           country.


USDA/OIG-A/33004-1-At                                                           Page 14
                            Agency Response:

                            In its January 28, 2000, written response, APHIS stated the following:

                                      PPQ agrees with OIG’s conclusions that the present statutory
                                      fine amounts are not an effective deterrent. However, we
                                      cannot unilaterally change civil penalties.         The national
                                      Safeguarding Review supports increasing penalty amounts, and
                                      the current legislation, “Plant Protection Act,” pending before
                                      Congress, would, inter alia, increase PPQ’s ability to assess
                                      higher penalties for violations. At this time, we await passage of
                                      the legislation.

                            OIG POSITION:

                            To reach management decision, we need the outcome on the pending
                            legislation that would allow the agency to increase civil penalties against
                            passengers caught bringing prohibited items into the country.

                                         PPQ allowed cargo brokers in Miami, acting
            FINDING NO. 5                as   agents for importers, to select six out of
                                         every seven inspection samples from
     PRACTICES FOR SELECTION OF          shipments of fresh-cut flowers. Brokers were
    SAMPLES OF PERISHABLE ITEMS          also allowed to select samples of imported
     COMPROMISED THE INGEGRITY           fruits and vegetables for inspection if a PPQ
           OF INSPECTIONS                officer was not available. In cases where a
                                         PPQ officer selected the samples, the officer
                                         left the samples in the broker's custody until
              another PPQ officer or inspection team arrived to perform the inspection.
              The period of time between the sample selection and the arrival of the
              inspection team varied from a few minutes up to 24 hours. PPQ officials
              said that brokers were allowed to select the large majority of samples for
              inspection because of staffing constraints. Because samples were not
              independently selected and controlled by the inspectors, the integrity of
              the sampling process was compromised.
                                                                   8
                            Federal regulations require that PPQ inspect plants and plant products at
                            the port of first arrival. PPQ inspection procedures require that a sample of
                            each shipment of fresh-cut flowers and plants arriving from foreign countries
                                                                                                  9
                            be selected and inspected for disease and pests. PPQ procedures allow
                            brokers to pull samples of the cargo for inspection if they have compliance
                            agreements with PPQ. The Compliance Agreement (PPQ Form 519)
                            authorizes the broker to act as the importer's agent in the sampling,
                            presenting for inspection, and safeguarding cargo.
8
    7 CFR 330, Federal Plant Pest Regulations; General; Plant Pests; Soil, Stone, and Quarry Products; Garbage, part 330.105, Inspection.
9
     USDA Training Manual for Warehouse Employees, a training program for Perishable Handlers, March 16, 1998.




USDA/OIG-A/33004-1-At                                                                                                                       Page 15
                          In a 1997 report, the General Accounting Office (GAO) questioned the
                                                                                         10
                          practice of allowing brokers to select samples for inspection.     The GAO
                          report stated in part: "In Miami, the second busiest port in the country, we
                          observed inspectors allowing import brokers of cut flowers to select
                          samples for inspection. With this practice, brokers could select samples
                          that are likely to pass inspection, which reduces the credibility of the
                          inspection."

                          GAO did not specifically address the problem of allowing brokers to select
                          samples in its recommendations to the APHIS Administrator.

                          APHIS did not change its procedures in Miami. It continued to allow
                          brokers and warehouse personnel to select samples of fresh-cut flowers,
                          plants, fruits, and vegetables for inspection. If brokers suspected there was
                          a problem with any portion of a shipment, they could exclude those items
                          from the samples presented to PPQ for inspection.

                          When PPQ selected the samples, the sampling and inspection practices in
                          Miami were as follows.

                          a.       A PPQ officer travels to the inspection site and selects the sample,

                          b.       a different officer travels to the site and inspects the sample, and

                          c.        if pests or diseases are found, a different officer travels to the
                                    inspection site to monitor the loading of the cargo and to seal the
                                    vehicle which transports the cargo to another location for treatment.

                          If one inspection team and/or one inspector performed the entire process it
                          would allow PPQ officers to perform all of the sampling, and keep the entire
                          process under their control. We discussed the issue with the Director of
                          Miami Cargo Operations and four supervisory inspectors. They agreed that
                          it would be feasible for one inspection team to complete the entire
                          inspection in one visit. However, the Director did not believe this method
                          would be practical during normal duty hours because the PPQ officers that
                          perform the inspections are assigned to other specific jobs including
                          assignments at the airport passenger terminals, the cargo inspection areas,
                          the plant inspection station, and the maritime port. Therefore, most of these
                          PPQ officers would not be available to perform cargo inspections until after
                          their normal work hours.

                          Even if the inspections were performed during overtime by one inspector or
                          team during a single visit, the process could be efficiently managed. The
                          inspections we observed took between 30 and 45 minutes to complete.
                          One inspection team could have more efficiently performed the entire
10
     GAO Report GAO/RCED-97-102 Agriculture Inspection, dated May 5, 1997.




USDA/OIG-A/33004-1-At                                                                               Page 16
           sampling and inspection process in a single visit. In many cases, the
           entire inspection could have been performed by one inspector which
           would cost less.

           In nearly all cases, the entire sampling and inspection process could be
           completed within the minimum of 4 hours overtime which each officer is
           paid. Our review of PPQ officers' time and attendance reports and
           associated worksheets, disclosed that officers frequently worked 1 hour or
           less when they were called out for an inspection and were paid for a
           minimum of 4 hours each time. For example, one officer worked overtime
           hours on 14 occasions during a 2-week pay period, and on 12 of those
           occasions he worked 1 hour or less. During the period, the officer actually
           worked a total of 13.5 overtime hours but was compensated for 55 hours.

           If one officer working overtime performed the sampling, inspection, and
           post-inspection tasks at the warehouse and was able to finish within the
           2 hour minimum work period, the importer would have to pay for only
           4 hours work and commute. If the tasks were complex or problems arose
           and it took the officer 4 hours to complete the inspection, the time charged
           the importer would be only 6 hours (4 hours work and 2 hours commute).
           Under the current method where separate officers perform each of the
           three tasks, the minimum time charged to perform the entire process is 12
           hours or 2 hours work and 2 hours commute for each of the three officers.


   RECOMMENDATION NO. 6


           Require PPQ inspectors to select and secure all samples of fresh-cut
           flowers, fruits and vegetables, and live plants that are to be inspected.

           Agency Position:

           In its January 28, 2000, written response, APHIS stated the following "The
           Port of Miami has revised its practices since the review, and the samples
           are being pulled in the presence of the PPQ officer. The Port of Miami has
           already implemented corrective action.”

           OIG Position:

           We agree with the revised procedures which now require a PPQ officer to
           be present when samples are selected. However, the response did not
           address the problem of leaving samples in the possession of brokers prior
           to inspection. The lack of control over the samples still allows the integrity
           of the sampling process to be compromised. To accept management




USDA/OIG-A/33004-1-At                                                           Page 17
           decision, we need timeframes and actions taken or planned to address
           this problem.


   RECOMMENDATION NO. 7


           Evaluate cargo inspection procedures in Miami to determine the feasibility
           or options available to have one inspector or one inspection team perform
           the entire inspection process (sample selection, inspection, and post-
           inspection requirements) during one visit to the inspection site. Include in
           the evaluation work scheduling options to achieve maximum efficiency for
           any overtime hours needed to perform the inspections.
           Agency Position:

           In its January 28, 2000, written response, APHIS stated the following:

                The Port of Miami’s inspection assignments (regular and
                overtime) are covered by its contract with the Union and are
                based on the number of units to be inspected. These standards
                have not been reviewed recently and need reevaluation. There
                may be some feasibility in team assignments, however, the
                amount of cargo entering the Port precludes assigning one
                inspector to the entire inspection in most cases. As PPQ moves
                toward implementation of the Safeguarding Review, much of
                this activity will involve how we deal with cargo inspection.
                Efforts are presently underway to amend the contract with the
                Union. Based on past experience, changing the contract is an
                involved and lengthy process. Therefore, it is impossible to
                estimate a completion date on this item.

           OIG Position:

           To reach management decision, we will need the timeframe for
           completing the reevaluation of the contract standards, the results of the
           reevaluation of the inspection standards, and details of the proposed
           amendments to the contract with the Union.

                                      Caterers at the Miami airport failed to control
         FINDING NO. 6                regulated garbage on arriving aircraft and
                                      allowed airline and airport personnel to remove
  COMPLIANCE AGREEMENTS               uneaten in-flight meals and other food items
  WITH CATERERS WERE NOT              from aircraft. Further, caterers did not meet all
         ENFORCED                     foreign arriving aircraft timely. PPQ officials
                                      stated they were unable to enforce compliance
                                      agreement with caterers because requirements


USDA/OIG-A/33004-1-At                                                         Page 18
                           for caterers were not spelled out in the Federal regulations. PPQ officials
                           also said they did not have authority to assess civil penalties against
                           caterers who did not meet provisions included in compliance agreement.
                           These violations increased the potential that plant pests and livestock or
                           poultry diseases could be brought into the country in regulated garbage.
                                                               11
                           Federal regulations describe regulated garbage as that which was on or
                           was removed from a means of conveyance if the means of conveyance has
                           been in any port outside the United States or Canada within the previous
                           2-year period. The regulations also classify unconsumed meals and other
                           food available for consumption by passengers and crew on an aircraft as
                           garbage.
                                                                                12
                           The PPQ Operations Manual requires catering firms to meet the aircraft,
                           properly remove regulated garbage in tight leak proof containers, and
                           ensure that meals and food items are not misappropriated. The
                           compliance agreement between PPQ and caterers contains the following
                           provisions.

                                      The caterer will meet aircraft originating from a foreign location
                                      (foreign flights) on arrival for the purpose of     decatering the
                                      aircraft. The caterer will immediately notify the local Plant
                                      Protection and Quarantine (PPQ) Office * * * if unable to meet a
                                      flight upon arrival, in which case the caterer will provide control
                                      over regulated garbage through assigned caterer personnel in a
                                      manner acceptable to PPQ.

                                      The caterer is responsible for all regulated garbage (with
                                      exception of garbage in galley garbage containers, if this
                                      galley garbage is contracted for removal by an approved
                                      cleaning firm) including food waste, loose trays of food, and
                                      unused meals; and will not allow its unauthorized diversion,
                                      removal or use.

                           The PPQ Violations - Monthly Report Log for June 1998, at the Miami
                           airport showed 11 violations involving decatering aircraft with 7 of them for
                           incidents where caterers did not show up or showed up more than
                           15 minutes after international flight arrivals. Further, a compliance officer
                           provided us with two reports where PPQ officers found that food had been
                           improperly removed from aircraft which arrived from foreign countries.
                           Details of the two incidents follow.

11
     7 CFR, chapter III, part 330.400, subpart-Garbage.
12
     PPQ APHIS Airport and Maritime Operations Manual, page 2.91, March 1996.




USDA/OIG-A/33004-1-At                                                                                Page 19
           •   On March 24, 1998, PPQ officers found six hot meals in the jetway next
               to an aircraft whose flight originated in South Africa, a high risk country
               for the dissemination of pests and diseases into the United States. The
               caterer claimed the meals had been removed before the plane was
               released to them by the crew. It was later learned that a mechanic
               removed the meals from the aircraft. The mechanic said the meals
               were removed while caterer employees were in the galley of the aircraft
               and they saw him take the meals out.

           •   On July 9, 1998, a PPQ boarding technician found three trays of unused
               in-flight meals that had been removed from an airplane which arrived
               from the Dominican Republic, a high risk area, especially for hog
               cholera. The meals were found unattended on the floor of the jetway
               with no caterer at the airplane. It is unknown who removed the meals,
               but they were obviously placed in the jetway so that someone could
               retrieve them later.

           PPQ officials in Miami said the only action they could take against the
           violators was to send them a warning letter.               They said APHIS
           Headquarters officials could probably revoke the catering companies'
           compliance agreements, but the companies could still cater inbound
           international aircraft as long as they had a contract with the airlines. They
           also said Headquarters officials informed them that, based on discussions
           with the Office of the General Counsel, PPQ had no legal authority to
           assess civil penalties against the caterers for failure to meet arriving aircraft
           timely and control regulated garbage.


   RECOMMENDATION NO. 8


           Revise 7 CFR, part 330.400 to (a) require caterers to meet aircraft at the
           time of arrival and control regulated garbage as specified in their
           compliance agreements with the U.S. Department of Agriculture and
           (b) seek legislation to assess civil penalties against caterers where
           conditions warrant such action.

           Agency Position:

           In its January 28, 2000 written response, APHIS stated the following:

                The Office of the General Counsel’s (OGC) opinion is that
                APHIS currently lacks authority to assess civil penalties against
                caterers. PPQ will explore this issue further with OGC. If it is
                legally possible to assess such penalties, we will issue national
                guidelines instructing PPQ officers about the authority. Referral
                to OGC will occur by February 15, 2000. If regulations are to be


USDA/OIG-A/33004-1-At                                                             Page 20
                  revised, we will be bound by the applicable time frames for
                  notice and public comment period.

             OIG Position:

             The APHIS response did not address part(a) of the recommendation. To
             reach a management decision for part(a), we need timeframes and details
             of actions proposed or taken to ensure that caterers meet aircraft timely
             and control garbage in compliance with agreements. To reach
             management decision for part(b) of the recommendation, we need OGC’s
             final decision on whether APHIS has legal authority to assess civil
             penalties. If OGC determines that APHIS has legal authority to assess
             civil penalties against caterers, provide us with a copy of the national
             guidelines issued to PPQ officers.

                                        PPQ officials at the Port of Miami did not allow
          FINDING NO. 7                 supervision of cargo inspections performed
                                        during overtime periods. Port officials
     CARGO INSPECTIONS                  interpreted APHIS PPQ's overtime policy to
     PERFORMED DURING                   mean that supervisory inspectors were not
   OVERTIME PERIODS WERE                permitted to work overtime on a regular basis.
      NOT SUPERVISED                    As a result, cargo inspections performed during
                                        overtime hours, which accounted for over
                                        50 percent of all cargo inspections at the port,
          were unsupervised. The absence of supervision of cargo inspection
          activities increases risk of pests and disease entering the country.

             The Miami Port Director wanted supervisory oversight of cargo inspection
             activities performed during overtime hours but stated that APHIS' national
             and district offices would not authorize it. In November 1997, the port
             director submitted a proposal for authorization of supervisory overtime to
             the SPHD who forwarded the request to the APHIS Headquarters.
             However, the proposal was not approved. At the time of our audit, a pilot
             project was underway at the port, which allowed supervisors to make a
             limited number of overtime visits to PPQ inspection sites. According to the
             Miami Port Director, the purpose of the project was to gather facts and
             support for another request for authority to provide supervision of cargo
             inspections performed during overtime hours.

             APHIS Headquarters officials said there must have been a
             misunderstanding by the Port of Miami PPQ officials regarding the agency's
             policy on allowing supervisory overtime. Headquarters officials pointed out
             that the agency's November 2, 1996, written policy (a) authorizes overtime
             to be performed by those employees (i.e., seasonal employees,
             technicians, PPQ officers, supervisors) who normally perform the same type
             of work during regular working hours and (b) requires that overtime for



USDA/OIG-A/33004-1-At                                                          Page 21
           specific supervisory activities be based on the same customer service and
           accountability standards used for nonsupervisory overtime. The policy
           further states that supervisors and managers will not routinely work
           nonsupervisory overtime when the service can be provided by the onsite
           cadre of nonsupervisory employees.

           We reviewed 41 supervisory cargo inspection reports that were performed
           during overtime hours at the Port of Miami. In 19 of the 41 cases, we
           requested that a supervisor accompany us to observe the inspections.
           Supervisors completed the other 22 reports during site visits they conducted
           between October 8 and 20, 1998, as part of the pilot project. Of the
           41 inspections they observed, the supervisors identified deficiencies with
           15 of the inspections. Examples of those discrepancies follow.

           •   In four cases, PPQ officers arrived late at the sites to inspect perishable
               products. This cost the broker and warehouse for personnel standing by
               to assist the inspectors. At one of the sites, we observed an aircraft
               crew-member removing a tray of ham sandwiches which is regulated
               garbage, from a plane that had just arrived from Bogota, Columbia. The
               PPQ officer scheduled to meet the aircraft did not arrive at this
               inspection site until after the incident occurred and after the PPQ
               supervisor had confiscated the sandwiches.

           •   At four sites, brokers did not select samples according to PPQ
               requirements--the samples were not large enough, brokers did not
               select flowers from all farms represented in the shipment, and sampled
               boxes were not listed on the PPQ Form 2/28, Sampling Breakdown
               Worksheet, so the sample could be verified by the inspectors.

           •   At one site, the PPQ inspector selected samples of live plants on a
               Sunday and left them in the warehouse in the custody of the broker.
               The samples were delivered the next day to the Miami inspection station
               for inspection.

           We also learned of employee misconduct which occurred during
           unsupervised overtime hours. Examples follow.

           •   Officers occasionally failed to report to their assigned inspection sites.
               However, some of the officers still claimed overtime compensation and
               were paid for the jobs they did not work. Without supervision during
               overtime inspections, there is little chance the violators would be caught.

           •   Officers brought children and other family members to cargo
               warehouses and other overtime work sites. This is against PPQ policy
               because it could create liability to the agency, the airport, or the cargo
               warehouses.



USDA/OIG-A/33004-1-At                                                            Page 22
           •   Officers reported to inspection sites out of uniform, sometimes only
               wearing tank tops and shorts. This creates a lack of respect for PPQ
               officers which could detract from their job effectiveness. Also, failure to
               wear proper apparel could be a safety factor in and around cargo
               warehouses.

           The same type of supervisory support given during regular hours should be
           available during overtime hours, especially since the majority of air cargo
           inspections at the Port of Miami are performed after normal work hours.


   RECOMMENDATION NO. 9


           Clarify the agency's policy regarding supervisory overtime and ensure that
           the Miami Port Director provides adequate overtime supervision of cargo
           inspections based on workload needs and when necessary. Also, evaluate
           the feasibility of scheduling supervisors to work staggered shifts.

           Agency Position:

           In its January 28, 2000, written response, APHIS stated the following:

                PPQ is committed to increasing the number of supervisors in
                our ports, particularly our large “super” ports like Miami. PPQ
                recognizes that inadequate supervision on various shifts is
                problematic. The policy on supervisory overtime issued by the
                Deputy Administrator in 1996, as cited by local PPQ managers,
                was meant to address only supervisors working journeyman
                overtime. PPQ will revisit that national policy and, in the
                meantime, the regional staff will assist the Port of Miami to
                ensure adequate supervision of officers performing overtime
                assignments. The Regional Director of the PPQ Eastern
                Region visited Miami in January to discuss plans for a review of
                supervisory needs in this particular area of overtime. By the
                end of the current fiscal year, this problem will be corrected and
                appropriate supervision will be in place.

           OIG Position:

           To reach management decision, we need (a) a copy of the revised
           national policy and instructions issued to the field regarding supervisory
           overtime and (b) details on actions planned or taken to ensure there is
           adequate supervision of PPQ officers performing inspections.




USDA/OIG-A/33004-1-At                                                            Page 23
          II. APHIS SHOULD EVALUATE USER FEES TO ENSURE FUNDING IS
              AVAILABLE FOR TIMELY AND THOROUGH INSPECTIONS




                                                                                 APHIS should evaluate the amount of user fees
                     FINDING NO. 8                     it charges for various inspection services and
                                                       the fee allocation process to ensure that
                                                       adequate staff/resource are available to PPQ
                           work units in Florida. The lack of funds affected PPQ's ability to perform
                           timely and thorough inspections at Florida ports to detect and prevent
                           undesirable pests and diseases from entering the United States. (See
                           Findings Nos. 1 through 7.)
                                                       13
                           Federal policy require that each service, sale, or use of Government
                           goods or resources provided to specific recipients be self-sustaining.
                           Further, the policy requires that user charges be sufficient to cover the full
                           cost to the Federal Government for providing the service.
                                            14
                           In 1997, GAO reported that APHIS' ability to effectively manage its
                           inspection program was being challenged by rapid growth in international
                           trade and travel since 1990. A study completed in 1998, by the Florida
                           SPHD stated that the agency's ability to proficiently keep up with the
                           increase in international activity within the State had deteriorated further
                           since the GAO report and was expected to get worse by the year 2000.
                           The SPHD's report attributed the decline in effectiveness to PPQ resources
                           not keeping up with the increases in international trade and travel. The
                           report acknowledged this has led to disturbing shortcuts in inspection and
                           monitoring techniques.

                           An example of shortcuts we observed was inspection procedures for cargo
                           ships and cruise ship passengers. Funding to the Miami and Fort
                           Lauderdale ports was not sufficient to provide the additional resources
                           needed to inspect cargo ships timely and for more thorough inspections of
                           cruise ship passengers. In addition, the inspection workload requirements
                           exceeded the cap placed on assessing ship inspection fees.




13
     Office of Management and Budget Circular No. A-25, User Charges, dated July 8, 1993.

14
     General Accounting Office Report GAO/RCED-97-102, Agricultural Inspections, May 5, 1997.




USDA/OIG-A/33004-1-At                                                                                                 Page 24
                                                           15
                          Federal regulations require ships' owners to pay APHIS a $454.50 fee for
                          each arrival at a U.S. port in FY 1998. The number of payments for
                          individual ships is limited to 15 in a calendar year. The payments are
                          collected for APHIS by U.S. Customs.

                          Ship arrival records at the ports in Fort Lauderdale and Miami showed that
                          42 cruise ships docked 1,566 times and 579 cargo ships docked 5,113
                          times in FY 1998. A total of 2,826 of these arrivals by 117 ships were
                          exempt from any fees for the inspection services rendered due to the
                          15 dockings limit. Assessment of fees for all dockings would have yielded
                          additional revenue of almost $1.3 million that could have been used for
                          enhanced inspections. (See table 5.)

                                                                 ARRIVALS                       FEES
                              TYPE                                            NOT
                               OF                               CHARGED     CHARGED                       NOT
                              SHIP               TOTAL            FEES        FEES      COLLECTED       CHARGED
                            Cruise                 1,566              457       1,109      $ 207,707    $  504,041
                            Cargo                  5,113            3,396       1,717       1,543,482      780,376
                            TOTAL                  6,679            3,853       2,826      $1,751,189   $1,284,417



                                                                   TABLE 5

                          Cruise ships take much longer to inspect because they normally have more
                          areas on board for stores and garbage and because of the large number of
                          passengers that have to be processed. Even so, PPQ charges cruise ships
                          the same fee that it charges cargo ships. Since fees are collected to offset
                          the cost of inspections, cruise ships with their higher inspection costs
                          should be charged more. Further, no per passenger fee, similar to the
                          $2 per passenger fee charged to airline passengers, is charged cruised ship
                          passengers. If such a fee was charged for cruise ship passengers, the
                          revenue could provide additional funds needed to adequately process
                          cruise ship passengers. (See Finding No. 3).
                          We discussed with APHIS Headquarters officials the need for additional
                          funding to provide more timely and thorough inspections in Florida. They
                          said that APHIS' inspection fee limit of 15 dockings for ships was patterned
                          after U.S. Custom procedures. They said U.S. Customs collects fees
                          assessed by APHIS and would resist having to collect additional fees if the
                          15 times per ship per year was increased. APHIS Headquarters officials
                          agreed that a per passenger inspection fee for cruise ship passengers was
                          a means for increasing funds for enhancing inspections and might be
                          considered.

15
     7 CFR 354.3(b)(1), dated January 1, 1998.




USDA/OIG-A/33004-1-At                                                                                       Page 25
   RECOMMENDATION NO. 10


           Evaluate the amounts of the various fees charged for inspections to ensure
           that funding is adequate to provide timely and thorough inspections.


   RECOMMENDATION NO. 11


           Revise 7 CFR, part 354.3(b) to increase the number of times individual
           cargo and cruise ships can be assessed a fee in a calendar year to ensure
           that sufficient funds are available to provide adequate and timely
           inspections.


   RECOMMENDATION NO. 12


           Assess cruise ships a per passenger inspection fee similar to the fee
           assessed airline passengers

           Agency Position:

           In its January 28, 2000, written response to the three recommendations,
           APHIS stated the following:

                Airline passenger user fees have been increased effective
                January 1, 2000. The increase was accomplished through
                legislative action. PPQ will explore the other possibilities of fee
                increases that the OIG Report suggests; but, decisions on
                inspections of cruise ships and cargo will be based on scientific
                risk assessment. Time frame for completion is approximately
                one year because we must staff our Risk Assessment Program
                and obtain sufficient information to reorganize the workhorse.

           OIG Position:

           To reach management decision for Recommendation No. 10, we need the
           evaluation results of the various inspection fees based on scientific risk
           assessment data. The APHIS response did not specifically address
           Recommendations Nos. 11 and 12. In order to accept management
           decision for these two recommendations, we need specific timeframes
           and actions taken or planned to address the recommendations.




USDA/OIG-A/33004-1-At                                                          Page 26
           III.     APHIS’ SUPERVISION                                     OF         PPQ    INSPECTION      ACTIVITIES       NEEDS
                    STRENGTHENING


                           We found that several PPQ employees at the Miami airport consistently
                           reported late for duty and used Government-owned vehicles (GOV) for
                           unauthorized purposes. We also found that one employee made
                           questionable charges to the Government for vehicle fuel and maintenance
                           costs. These conditions went undetected and/or uncorrected because of a
                           low level of supervisory oversight and weak controls over employee time
                           and attendance and vehicles operations.

                                                                                    PPQ officials had no system in place to monitor
                     FINDING NO. 9                                                  the times employees at the Miami airport
                                                                                    reported to, or departed from, their duty
         EMPLOYEES WERE                                                             stations.    During the period September 1
      CONSISTENTLY TARDY FOR                                                        through October 7, 1998, six habitually tardy
              WORK                                                                  employees were paid for approximately
                                                                                    90 hours that they did not work. This occurred
                                                                                    because of a lack of supervisory monitoring or
                                                                                    other     controls  over    employees'    work
                                                                                    attendance.
                                                                                                                        16
                           The APHIS directive on employee conduct and responsibilities requires
                           employees to report for duty on time and render full, honest, and industrious
                           service in the performance of their assigned duties.

                           For the period September 1 through October 7, 1998, we reviewed records
                           that listed all entries and exits of the 161 PPQ employees at their work area
                           at the Miami airport. We found that six of the employees were consistently
                           late for work. (See table 6.)




16
     APHIS Directive 4735, Conduct and Responsibilities, dated February 27, 1991.




USDA/OIG-A/33004-1-At                                                                                                        Page 27
                                          UNEXCUSED ABSENCES (IN HOURS:MINUTES)

                                DAYS                                  SUNDAY/                        LOST
                                                      1
               EMPLOYEE        TARDY      REGULAR          NIGHT      HOLIDAY         TOTAL         WAGES
                   1             17                9:42                      1:53        11:35          $ 232
                   2             27                0:18        35.5         10.01        46.12          1,211
                   3             12                6:58                      1:14         8:12            193
                   4             30                7:36                      1:22         8:58            179
                   5             19                3:23         4:5          2:24        10:40            227
                   6             14                             4:0          0:33         4:41             62


                       Total                      27:57      44:54          17:27         90:18        $2,104
           1
            Regular hours are from 6a.m. until 6p.m. Night hours are paid at 110 percent (1.1) of the employee's
           wage rate. Sunday/Holiday hours are paid at 200 percent (2 times) the employee's wage rate.



                                                     TABLE 6

           The Metro-Dade Aviation Department issues identification badges for
           security purposes to PPQ personnel who work at the airport. The
           identification badges contain a magnetic stripe which must be swiped
           through a reader each time an employee enters or exits work areas. Each
           time a badge is swiped, a record is made that lists the badge owner's name,
           the date and time of the swipe, and the location of the reader where the
           swipe was made. Airport rules require that when two or more persons enter
           or exit a restricted area together, each must swipe their badge through the
           reader to record their entry or exit from the restricted area.

           The badge swipe records for the six employees in question showed that
           they reported late for work on most days during the period reviewed.
           However, each of the employees completed and signed time and
           attendance sheets certifying that they were present for the entire shifts.

           We interviewed the six employees concerning their tardiness. However,
           none of their explanations justified the employees' unexcused absences.
           Details of two of the employees excuse follow.

           Employee No. 2 - The employee claimed to have been conducting
           surveillance activities of off airport catering companies in his personal
           vehicle prior to reporting to work. However, documentation provided by the
           employee did not support his claim.




USDA/OIG-A/33004-1-At                                                                                    Page 28
           Employee No. 3 - The employee claimed the Director of Airport Operations
           gave her permission to take compensatory time off without prior approval
           for working late during most of the employee's shifts. The Director of Airport
           Operations confirmed the employee's statement. However, the port director
           said the Director of Airport Operations did not have authority to grant the
           employee compensatory time off. Further, the employee's daily badge
           swipe records did not substantiate the individual's claim of working
           overtime. Two PPQ supervisors claimed they saw the employee arrive to
           work late on several occasions after the date the employee was questioned
           about being tardy. A subsequent review of employees' identification badge
           swipe records for the period of November 1 through December 3, 1998,
           showed this employee continued to report late for work.

           On March 12, 1999, we issued a management alert to APHIS concerning
           employee tardiness at the Miami airport. The APHIS Administrator
           responded that the Resource Management System and Evaluation Staff
           would investigate the condition and would take appropriate actions. As of
           August 31, 1999, the investigation had not been conducted.


  RECOMMENDATION NO. 13


           Require the Miami Port Director to implement procedures and controls to
           ensure that employees work the hours in which they certified to on their
           time and attendance records.


  RECOMMENDATION NO. 14


           Require the Resources Management System and Evaluation Staff to review
           Metro-Dade Aviation Department security system records and PPQ
           employee pay records for FY's 1998 and 1999, to identify employees that
           were paid for periods of unexcused absences, and recover improper
           payments from and take appropriate administrative action against
           employees who received pay for periods of unexcused absences. Provide
           us with the results of the investigation and the actions taken.

           Agency Position:

           In its January 28, 2000 written response to the two recommendations,
           APHIS stated the following:

                There are presently two ongoing investigations in the Port of
                Miami for employee misconduct. Additionally, there are two
                other investigations ongoing concerning overtime and time and


USDA/OIG-A/33004-1-At                                                           Page 29
                                     attendance allegations. PPQ will take appropriate disciplinary
                                     and managerial action when abuses of time and attendance is
                                     substantiated.

                                     The Port of Miami is also exploring the use of a computerized
                                     badge identification system to record all employee work arrival
                                     and departure times. These recording devices can be used for
                                     overtime assignment (i.e., to verify when an employee reports
                                     and completes overtime assignment). This system also provides
                                     a verification of the employee’s day-to-day time and attendance.
                                     This system costs $40,000 for Miami. PPQ is considering the
                                     feasibility of purchasing these systems for our “super” ports.

                           OIG Position:

                           To reach management decision for Recommendation No. 13, we need
                           specific timeframes for actions taken or planned to monitor employees'
                           work arrival and departure times to ensure hours certified to are actually
                           worked. To reach management decision for Recommendation No. 14, we
                           need the results of the investigations and actions taken against
                           employees that were paid for periods of unexcused absences.

                                                                               We noted instances of improper use of
                   FINDING NO. 10                                              Government vehicles and questionable charges
                                                                               to the Government for vehicle maintenance
MANAGEMENT DID NOT MONITOR                                                     totaling $747 made by one PPQ employee.
EMPLOYEES’ USE OF GOV's AND                                                    These discrepancies occurred due to a lack of
      CREDIT CARDS                                                             supervisory oversight.


                           Improper Use of GOV’s
                                                                  17
                           APHIS requirements dictate that GOV's be used for official purposes only,
                           and employees who operate GOV's or Government leased vehicles be
                           familiar with GOV regulations. Operators should exercise discretion and
                           avoid any situation which gives the appearance that a GOV is being used
                           for a purpose other than official business. Any employee who willfully uses
                           or authorizes the use of a GOV for other than official purposes shall be
                           suspended for not less than 30 days.

                           PPQ employees used GOV's without completing a record or log to
                           document the vehicle operator, purpose, time, destination, and total miles
                           driven for each trip. The keys to the GOV's were kept in easily accessible
                           locations available to numerous PPQ personnel.

17
     APHIS Manual 4735 SDG, Personnel Management Issuance System, Conduct and Responsibilities, Supervisor's Desk Guide, dated October 1990.




USDA/OIG-A/33004-1-At                                                                                                                          Page 30
           Our review of PPQ records and discussions with PPQ managers disclosed
           two incidents where PPQ employees improperly used GOV's. In one
           incident the employee drove a GOV to his residence and left it illegally
           parked. The employee's neighbor reported the parking violation to the
           Miami Police Department and the vehicle was subsequently towed and
           impounded by the police. In the other incident PPQ officials found drug
           paraphernalia in a GOV which PPQ managers later discovered had been
           driven by an employee to unauthorized locations. PPQ officials initiated
           administrative actions against the two employees involved. However, the
           agency did not establish and implement controls to prevent future
           occurrences of improper use of GOV's.

           PPQ supervisors suspected other employees assigned to the Miami
           airport were using GOV's improperly. The improper use of a GOV
           exposes the Government to unnecessary liability, especially, if the vehicle
           is involved in an accident or used in the commission of an illegal act.

           Questionable Fuel and Maintenance Costs

           A PPQ employee charged questionable vehicle fuel and maintenance
           expenses of $747 to the Government. Credit card receipts for gas and oil
           purchases and paid invoices for service and maintenance on GOV's
           assigned to PPQ at the Miami airport were placed in a drawer in a
           supervisor's office, and were not utilized to authenticate expenses the
           Government paid for.

           We reviewed the FY 1998 fuel and maintenance costs totaling $18,559 for
           GOV's assigned to the Miami airport and found one employee made four
           questionable charges to the Government totaling $746.53. Details of the
           charges follow.

          •   An invoice from business A, dated May 4, 1998, was for $649.95 to
              replace the air conditioner on a PPQ vehicle. Shortly after the repair, a
              PPQ technician and another mechanic at a different repair facility
              inspected the vehicle and found that the air conditioner had not been
              replaced.

          •   An invoice from business A, dated September 9, 1998, was for $40 for
              an oil change. Originally the invoice was for $19.95 but it had been
              altered to $40.00. Between August and November 1998, other PPQ
              employees had 12 oil changes on GOV's at a cost of $19.95 each.

          •   Two Government credit card transactions dated September 12, 1998, at
              business A were made 11 minutes apart. One charge was for $21.87
              and had "REGLR" on the charge slip. The charge slip indicated




USDA/OIG-A/33004-1-At                                                         Page 31
              20 gallons of gasoline was purchased. The other charge was for $42.60
              and had "AUTO" on the charge slip. Neither the PPQ files nor the
              charge slip showed what the $42.60 was for. A Government credit card
              charge transacted at business B for $45.41 on September 18, 1998,
              included $8.98 for snacks.

           On November 30, 1998, the U.S. Department of Agriculture's National
           Finance Center suspended PPQ's authority to charge automobile expenses
           to six credit cards assigned to the facility at the Miami airport. The National
           Finance Center took this action because the GOV expenses charged to the
           credit cards were excessive when compared to the number of miles the
           vehicles were driven during the previous 12-month period. This further
           indicates that questionable charges were being made on Government credit
           cards assigned to GOV's at the Miami airport.


  RECOMMENDATION NO. 15


           Instruct the Miami Port Director to establish procedures to monitor and
           control the use of GOV's and ensure that charges associated with GOV's
           are allowable and reasonable before being paid.


  RECOMMENDATION NO. 16


           Review vehicle fuel and maintenance costs associated with GOV's at the
           Port of Miami to identify improper charges and recover the improper
           charges from responsible PPQ employees and take additional
           administrative actions deemed appropriate.

           Agency Position:

           In its January 28, 2000, written response to the two recommendations,
           APHIS stated the following:

                PPQ management has initiated measures to ensure that
                Agency policies and guidelines are followed and that
                disciplinary actions are imposed when infractions surface.
                Quality assurance positions are planned for the regional office
                to help ensure oversight on such issues and to monitor
                compliance with management directives. Five new Employee
                Relations Specialist will be hired within the coming year to
                ensure prompt disciplinary decisions.       Two incidents of
                misconduct identified by OIG have pending disciplinary action
                proposals awaiting processing.


USDA/OIG-A/33004-1-At                                                            Page 32
                The Florida State Health Plant Director has established a new
                position for the State, a Vehicle Transportation Specialist. The
                employee in this position has already created a database for all
                Florida work unit vehicles. Florida record keeping will include
                vehicle tag, model, emission testing for vehicle, and local work
                unit data spread sheets will be created showing vehicle gas
                purchases and scheduled maintenance or repairs. These
                reports will enhance supervisor accountability that is required in
                the area of vehicle maintenance and record keeping.

           OIG Position:

           To reach management decision for Recommendation No. 15, we need
           copies of APHIS policies and procedures established to monitor and
           control the use of GOV’s and details of measures initiated to ensure that
           these policies and procedures are followed. To reach management
           decision for Recommendation No. 16, we need details of the final results
           of the investigations and actions taken or planned against employees
           who made improper charges related to GOV’s.




USDA/OIG-A/33004-1-At                                                         Page 33
EXHIBIT A - SUMMARY OF MONETARY RESULTS


  Finding
    No.             Description        Amount         Category
                                               Questioned Cost/Loans
      9     Improper Salary Payments    $2,104 Recovery - Recommended
            Improper Vehicle                  Questioned Cost/Loans
     10     Maintenance Costs             747 Recovery - Recommended
                  Total                 $2,851




USDA/OIG-A/33004-1-At                                            Page 34
EXHIBIT B - LOCATIONS WHERE AUDIT WORK WAS PERFORMED



                                                  LOCATION
      APHIS PPQ ORGANIZATION/WORK SITE
                                          Washington, D.C. and
APHIS PPQ National Office                 Riverdale, Maryland
State Plant Health Director               Gainesville, FL
Port of Miami                             Miami, FL
  Miami International Airport             Miami, FL
  Seaport - Port of Miami                 Miami, FL
Fort Lauderdale Work Unit                 Fort Lauderdale, FL
  Fort Lauderdale International Airport   Fort Lauderdale, FL
  Seaport - Port Everglades               Fort Lauderdale, FL
Orlando Work Unit                         Orlando, FL
  Orlando International Airport           Orlando, FL
  Herndon Work Station                    Orlando, FL
  Sanford Work Station                    Sanford, FL
Tampa Work Unit                           Tampa, FL
  Seaport - Port of Tampa                 Tampa, FL
  Tampa International Airport             Tampa, FL
  Mac Dill Air Force Base                 Tampa, FL
  Palmetto Work Station                   Palmetto, FL




USDA/OIG-A/33004-1-At                                           Page 35
